Case: 21-40355

Document: 00515958699

Page: 1

Date Filed: 07/30/2021
&

States Court of appeals
for tfjc Jftffl) Circutf
No. 21-40355

Tony Lamar Vann
Plaintiff—Appellant,
versus
Ken Paxton, Attorney General of the State of Texas;
Melanie Wiesman, Felony Prosecutor, Collin County,
TX; Ashley Kells, Chief Felony Prosecutor, Collin
County, TX; Richard Chambers, Wylie Police
Department,
Defendants—Appellees.

Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 4:18-CV-570

ORDER:
On June 30,2021, the clerk DISMISSED the appeal at the direction
of the Court for appellant’s failure to file sufficient brief and record excerpts.
Upon consideration of Appellant’s motion for reconsideration, IT IS
ORDERED that the motion is DENIED.

Gregg Jfg^sTA
United States Circuit Judge

A

Case 4:18-cv-00570-ALM-CAN Document 73 Filed 04/21/21 Page 1 of 4 PagelD #: 345

e>
United States District Court
EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION

TONY LAMAR VANN

§

v.

§ Civil Action No. 4:I8-CV-570
§ (Judge Mazzant/Judge Nowak)

KEN PAXTON, ETAL.

§
§
ORDER

Pending before the Court is Plaintiff Tony Lamar Vann’s Motion to Reinstate Dismissed
Case (Dkt #68). Having considered the relevant pleadings, the Motion is DENIED.
Pro se Plaintiff Tony Lamar Vann filed the instant suit on August 6, 2018 (Dkt. #1) for
alleged civil rights violations stemming from Plaintiff*s criminal conviction for felony possession
of a controlled substance. On April 18, 2019, the Magistrate Judge recommended dismissal of
Plaintiffs claims (Dkt #46) and denial of sanctions against Plaintiff (Dkt. #47), which the
undersigned adopted on July 31,2019 (Dkt. #51). On August 21,2019, Plaintiff requested a new
trial (Dkt. #55), which the Court construed as a Rule 59(e) request and subsequently denied
(Dkt. #59). Thereafter, Plaintiff pursued an appeal (Dkts. #52; #60), and, on March 31,2021, also
sought further relief from the Court through the instant motion (Dkt. #68). On March 23, 2021,
the Fifth Circuit dismissed Plaintiffs appeal as frivolous. Vami v. Paxton. 840 F. App’x 801 (5th
Cir. 2021) (per curiam); see also (Dkt. #72).
Plaintiff seeks relief pursuant to Rule 60(b), which reads:
On motion and just terms, the court may relieve a party or its legal representative
from a final judgment, order, or proceeding for the following reasons:
(1) mistake, inadvertence, surprise, or excusable neglect;
(2) newly discovered evidence that, with reasonable diligence, could not have been
discovered in time to move for a new trial under Rule 59(b);
(3) fraud (whether previously called intrinsic or extrinsic), misrepresentation, or
misconduct by an opposing party;
(4) the judgment is void;

Case 4:18-cv-00570-ALM-CAN Document 73 Filed 04/21/21 Page 2 of 4 PagelD #: 346

(5) the judgment has been satisfied, released, or discharged; it is based on an earlier rjudgment that has been reversed or vacated; or applying it prospectively is no
longer equitable; or
(6) any other reason that justifies relief.
Fed. R. Civ. P. 60(b). Of these grounds, Plaintiff relies on two: mistake, inadvertence, surprise, or
excusable neglect ((b)(1)); and new evidence ((b)(2)). The burden of establishing at least one of
these enumerated grounds lies with Plaintiff, and “the determination of whether that burden has
been met rests within the discretion of the court” Fontenot v. Axxis Drilling, Inc., No. 09-5629,
2011 WL 121895, at *4 (E.D. La. Jan. 13. 2011) (citing Lavespere v. Niagara Mach. & Tool
Works, Inc., 910 F.2d 167,173-74 (5th Cir. 1990)). In the Fifth Circuit, “relief under Rule 60(b)
is considered an extraordinary remedy” and “the desire for a judicial process that is predictable
mandates caution in reopening judgments.” In re Fettle, 410 F.3d 189, 191 (5th Cir. 2005)
(internal citations and quotation marks omitted).
Plaintiff asserts new evidence exists “since the courts have a clear video of the corrupt
police officer planting drugs on the plaintiff’ and further that “a full investigation is needed for all
persons arrested for drugs... due to the fact every month we are seeing black men released from
prison after serving 20-30 years in prison due to corrupt law enforcement” (Dkt. #68 at p. 2).
Plaintiff continues that the trial court elected to “aid and abet” the officer who purportedly planted
drugs on him. Id. “To set aside a final judgment under Rule 60(b)(2), a movant must show that
1) it exercised diligence in obtaining the newly discovered evidence that is the basis of the motion
and 2) the newly discovered evidence is material and would have produced a different result.”
SAP America, Inc. v. InvestPic, LLC, No. 3:I6-CV-02689-K, 2021 WL 1102085, at *2 (N.D. Tex.
Mar. 23,2021) (citing Heslingv. CSXTransp., Inc., 396 F.3d 632,639 (5th Cir. 2005)). Plaintiffs
alleged “new evidence” is merely a rehashing of what he has presented in his underlying claims.
Plaintiffs complaint alleges he was wrongfully convicted because of drug-planting. Indeed, the

2

Case 4:18-cv-00570-ALM-CAN Document 73 Filed 04/21/21 Page 3 of 4 PagelD #: 347

Magistrate Judge’s report details at length Plaintiffs allegations that the officer planted contraband
in his vehicle; the Court advised Plaintiffthen, and advises him again now, that his claims of drug­
planting are barred by Heck. Rule 60(b) is not a proper vehicle for rehashing evidence, legal
theories, or arguments.
Plaintiff also references Rule 60(b)(1), however, the mistake he appears to reference is the
alleged proper court or venue of his suit; Plaintiff protests that he filed his complaint in Plano,
Texas, but somehow his complaint was transferred to Sherman, Texas, some 65 miles away.
Plaintiff avers that it was a mistake to allow his case to proceed in Sherman, and that the proper
location to hear his case is Plano. The Sherman Division is a unique division within the Eastern
District of Texas in that it contains two courthouses—one located in Sherman, Texas, and one
located in Plano, Texas. See Monroe v. Walmart Stores Texas, LLC, No. 2:11-CV-329-JRG, 2012
WL 3887006, at *1 (E.D. Tex. Sept 6,2012). Whelher filed at the clerk’s office in Plano, or in
Sherman, however, all cases fall under the auspices of the Sherman Division. Upon filing, cases
assigned to the Sherman Division are then randomly assigned, on a 50/50 basis, for trial either in
Plano or in Sherman. Roberts v. Paris Regional Medical Center, No. 2:18-CV-00191-JRG-RSP,
2018 WL 4221861, at *4 n3 (ED. Tex. Sept. 5,2018). No mistake exists; the Court is a district
court in the Sherman Division. No transfer occurred.
Plaintiffs request to reinstate lacks merit; he has failed to allege any extraordinary
circumstance meriting relief under Rule 60(b). And further, the Fifth Circuit has already ruled
upon Plaintiffs appeal, finding it frivolous and dismissing same.

3

:

Case 4:18-cv-00570-ALM-CAN Document 73 Filed 04/21/21 Page 4 of 4 PagelD #: 348

CONCLUSION
It is therefore ORDERED that Plaintiffs Motion to Reinstate Dismissed Case (Dkt. #68)
is DENIED.
IT IS SO ORDERED.
SIGNED this 21st day of April, 2021.

AMOSL. MA2ZANT
& V
UNITED STATES DISTRICT JUDGE

4

CASE NO. 21-40355
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
TONY LAMAR VANN
APPELLANT,

)
)
)

VS.

)

USDC NO. 4:18-

)

KEN PAXTON ETAL
APPELLEES,

)
)

MOTION FOR RECONSIDERATION OF CASE
DISMISSED BY THE CLERK UNDER 5TH CIR 27.1.6
THAT ON THE 30TH DAY OF JUNE 2021 COURT CLERK REBECCA L. LETO AND LYLE W.
CAYCE DENIED TONY VANN APPEAL HEREINAFTER “APPELLANT”. UNDER 27.1 CLERK
MAY RULE ON CERTAIN MOTIONS. UNDER FED. R. APP. P. 27 (B). THE CLERK HAS
DISCRETION TO ACT ON MOTIONS. THE CLERKS ACTION IS SUBJECT TO REVIEW
BY A SINGLE JUDGE IF MOTION FOR RECONSIDERATION IS MADE WITHIN 14 OR 45
DAY SET BY FED R. APP. P. 40.
HOWEVER, SAID COURT CLERKS DISMISSED THE CASE BEFORE ALLOWING A SINGLE
JUDGE TO MAKE A RULING UNDER RULE 27.2.1 FOR A SINGLE JUDGE RECONSIDER­
ATION OF A RULING MADE BY THE CLERK. SAID COURT CLERKS DISMISSED CASE
ON 06/30/2021. HOWEVER, SAID SINGLE JUDGE DID NOT MAKE A RULING ON MOTION
FOR RECONSIDERATION UNTIL 07/09/2021 SOME 9 DAYS AFTER THE CASE WAS
DISMISSED BY THE COURT CLERKS. DUE PROCESS UNDER THE 14TH CONST AMEND­
MENTS WOULD REQUIRE THAT THE JUDGE MAKE A RULING WHILE THE CASE WAS
STILL PENDING. NOT 9 DAYS AFTER THE CASE WAS DISMISSED.(SEE; ATTACHED)
ALSO THE COURT REFUSED TO ADDRESS THE MAIN ISSUES RAISED IN THE ABOVE
STYLED CAUSE TO-WIT; THE FACT POLICE OFFICER RICHARD CHAMBERS PLANTED
DRUGS ON THE APPELLANT. WITH HIS OWN BODY CAMERA CAUGHT ON VIDEO. SAID
COURT ELECTED TO ALLOW THE COURT CLERKS TO DISMISS THE CASE IN A EFFORT TO
ELUDE THE ABOVE STYLE ISSUE. ABOVE SAID COURT CLERK HAS BEEN DENYING
APPELLANT ACCESS TO THE COURTS. BY FINDING PROBLEMS WITH HIS LEGAL BRIEFS
WHICH IS PROHIBITED UNDER FRAP 25 (4), AND HAINES VS. KERNER. 404 U.S. 519. 520
119711. SHOWING A CLEAR NEED FOR LEGAL REFORM IN THE COURT SYSTEM.
A COURT CLERK SHOULD NOT HAVE THE POWER TO MAKE RULINGS ON LEGAL BRIEFS
THE SAID POWER WAS NOT APPROVED BY THE U.S. LEGISLATORS AND CLEARLY AN
OVERSTEP BY THE GOVERNMENT. ( BECAUSE HE/SHE IS NOT A JUDGE). HOWEVER,
ITS HAPPENING EVERYDAY IN PRESENT COURT SYSTEM. CAUSING MILLIONS OF PRO­
SE PETITIONERS DENIAL OF ACCESS TO THE COURTS, AND EAJA FEES. (1).

1}

IF INDIGENT PRO-SE PETITIONERS ARE BEING HELD TO STRICT STANDARDS
RESERVED FOR ATTORNEYS WITH YEARS OF LEGAL TRAINING. THAN AN ATTORNEY
MUST BE APPOINTED BY THE COURTS IN ALL LEGAL MATTERS CIVIL & CRIMINAL.
OTHERWISE THE COURTS ARE SETTING POOR PEOPLE WHO CAN NOT AFFORD AN
ATTORNEY UP FOR FAILURE. AND DENYING ALL SERIOUS ISSUES LIKE ABOVE ON
TECHNICAL ISSUES THAT CAN’T BE RESOLVED WITHOUT YEARS OF LEGAL SCHOOL.
SHOWING AN EFFORT BY THE COURTS TO DENY ALL ISSUES RAISED BY THE POOR,
WITH INTENT FOR OPPRESSION OF ALL INDIGENT PRO-SE PETITIONERS.
INTERESTED PARTIES FOR WHOM IT'S FILED
KEN PAXTON, MELENIE WIESMAN, ASHLEY KELLS, RICHARD CHAMBERS,
ATTORNEYS; WILLIAM W. KRUEGER III, ROBERT J. DAVIS, KEN PAXTON
VERIFICATION
THAT THE INFORMATION IS TRUE, AND THAT THE APPELLANT UNDERSTANDS THE
POSSIBLE PENALTY OF PERJURY FOR PROVIDING FALSE OR MISLEADING STATEMENTS
SHOULD APPEAR ON APPLICATION AS WELL.
CERTIFICATE OF COMPLIANCE
MOTION COMPLIES WITH THE TYPEFACE REQUIREMENTS OF RULE 32 (A)(5) AND THE
TYPE-STYLE REQUIREMENTS OF RULE 32 (A)(6).
CERTIFICATE OF SERVICE
I HEREBY CERTIFY THAT ON THE
DAY OF
AND CORRECT COPY OF THIS MOTION TO;

2021.1 MAILED A TRUE

COURT CLERK OF THE U.S. COURT OF APPEALS FOR THE FIFTH CIRCUIT
600 S. MAESTRI PLACE SUITE #115 NEW ORLEANS, LA 70130
THE LAW OFFICES OF WILLIAM W. KRUEGER, HI, PC. 2100 ALAMO RD.,
STE T RICHARDSON, TEXAS 75080
ROBERT J. DAVIS 8131 LBJ FREEWAY, SUITE 700 DALLAS, TEXAS 75251
KEN PAXTON P.O. BOX 12548 AUSTIN, TEXAS 78711- 2548
RESPECTFULLY SUBMITTED
17 CUSTER DRIVE
DALLAS TEXAS 75216 PHONE 214- 270- 5753
(2).

Case: 21-40355

Document: 00515932751

Page: 1

Date Filed: 07/09/2021

®ntte& States! Court of appeals;
for tfje Jftftfj Circuit
No. 21-40355
Tony Lamar Vann
Plaintiff—Appellant,
versus
Ken Paxton, Attorney General of the State of Texas;
Melanie Wiesman, Felony Prosecutor, Collin County,
TX; Ashley Kells, Chief Felony Prosecutor, Collin
County, TX; Richard Chambers, Wylie Police
Department,
Defendants—Appellees.
Appeal from the United States District Court
for the Eastern District of Texas
USDCNo. 4:18-CV-570
ORDER:
On June 17,2021, the clerk took no action on Appellant’s motion for
reimbursement of EAJA fees. Upon consideration of appellant’s motion for
reconsideration, IT IS ORDERED that the motion is DENIED.
_/s/ Gregg J. Costa
Gregg J. Costa
United States Circuit Judge

Case: 21-40355

Document: 00515921074

Page: 1

Date Filed: 06/30/2021

tHntteb States Court of Appeal#
for tfje Jftftf) Circuit

v--

No. 21-40355
Tony Lamar Vann,
/

Plaintiff—Appellant,
versus
Ken Paxton, Attorney General of the State of Texas;
Melanie Wiesman, Felony Prosecutor, Collin County,
TX; Ashley Kells, Chief Felony Prosecutor, Collin
County, TX; Richard Chambers, Wylie Police
Department >
Defendants—Appellees.
Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 4:18-CV-570
CLERK’S OFFICE:
Under 5th Cir. R. 42.3, the appeal is dismissed as ofjune 30,2021, ~
for want of prosecution. The appellant failed to timely file his sufficient brief
and record excerpts.

Afw3

&

:

VfJSIPj
&

A True Copy
Certified order issued Jun 30,2021

Ui. Cumu
Clerk, U.S. Court of A!ppeals, Fifth Circuit

Case: 21-40355

Document: 00515921074

Page: 2

Date Filed: 06/30/2021

No. 21-40355
T"

LYLE W. CAYCE
Clerk of the United States Court
of Appeals for the Fifth Circuit
By:
Rebecca L. Leto, Deputy Clerk
ENTERED AT THE DIRECTION OF THE COURT

2

Case 4:18-cv-00570-ALM-CAN Document 46 Filed 04/18/19 Page 1 of 20 PagelD #: 214

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION
TONY LAMAR VANN,

§
§
§
§
§
§
§
§
§

Plaintiff,
v.
KEN PAXTON, ET AL.,
Defendants.

CIVIL ACTION NO. 4:18-CV-00570-ALMCAN

REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE JUDGE
Pending before the Court are Defendants Collin County Assistant District Attorneys
Melanie Wiesman and Ashley Keifs Motion to Dismiss Pursuant to Fed. R. Civ. P. 12(b)(6)
[Dkt. 13], Defendant Ken Paxton’s Motion to Dismiss Pursuant to Fed. R. Civ. P. 12(b)(1) and
Fed. R. Civ. P. 12(b)(6) [Dkt. 25], and Defendant Richard Chambers’s Motion to Dismiss or, in
the Alternative, Motion for Summary Judgment [Dkt. 34]. The Court, having considered the
Motions [Dkts. 13, 25, 34], Plaintiffs Responses [Dkts. 21, 31, 37], Defendant’s Reply [Dkt. 44],
and all other relevant filings, including specifically Plaintiff s Objection to Defendants Assertions
of the Qualified Immunity Defense and Sanctions/and Second Motion for Default Judgment [Dkt.
36], finds that Defendants’ Motions to Dismiss should each be GRANTED as set forth herein.
BACKGROUND
On April 18, 2017, Wylie Police Officer Richard Chambers executed a traffic stop of
Plaintiffs vehicle after Plaintiff “failfed] to stop at the designated stop point” and “block[ed] the
cross walk” [Dkt. 4-1 at 2]. Plaintiff pulled his vehicle into a parking lot and was speaking to
someone on the phone when Officer Chambers approached the vehicle [Dkt. 4-1 at 2]. Plaintiff ,
provided Officer Chambers with an expired driver’s license, but was unable to provide Officer

REPORT AND RECOMMENDATION - Page 1

Case 4:18-cv-00570-ALM-CAN Document 46 Filed 04/18/19 Page 2 of 20 PagelD #: 215

Chambers with proof of vehicle insurance. Throughout their interaction, Officer Chambers noted
that some of Plaintiffs behavior and answers were suspicious, specifically, Plaintiff informed
Officer Chambers that he drove from Arlington to Wylie to pick up a BBQ pit that was in
someone’s trash [Dkt. 4-1 at 2]. Once backup arrived at the scene, Officer Chambers ran a record
check on Plaintiff, discovering numerous active suspensions and warrants [Dkt. 4-1 at 2]. Officer
Chambers returned to the vehicle and asked Plaintiff to exit the vehicle [Dkt. 4-1 at 2]. Thereafter,
Plaintiff consented to a search of the vehicle, signing a Wylie Police Department Consent to Search
form [Dkt. 4-1 at 2]. Officer Chambers searched the vehicle, finding a “small clear baggie with a
white substance,” which he believed to be crack cocaine, located “[n]ext to the passenger seat and
center console” [Dkt. 4-1 at 2].

The substance field-tested positive for cocaine [Dkt. 4-1 at 3].

Officer Chambers then arrested Plaintiff and transported him to the Collin County Jail, and
impounded the vehicle [Dkt. 4-1 at 3].
Plaintiff was indicted in July 2017, for felony possession of a controlled substance under
one gram [Dkt. 13-2], and on September 19, 2017, a criminal case was filed based on the
indictment in state court [Dkt. 13-1]. State of Texas v. Tony Lamar Vann, Cause No. 401-830372017. The Government was represented in the prosecution of the criminal case by Collin County
Assistant District Attorneys Melanie Wiesman and Ashley Keil.

During the state criminal

proceedings, Plaintiff filed numerous pleadings, including a Motion to Dismiss [Dkt. 4-1 at 1] and
a Motion to Quash [Dkt. 4-1 at 4], both seeking to challenge different procedural and evidentiary
aspects of his criminal charges. Plaintiff, who was represented by defense counsel, entered a guilty
plea on May 23, 2018 to possession of a controlled substance under one gram, and was sentenced
to two (2) years of confinement and three (3) years of post-conviction community supervision

1 Plaintiff has mis-identified Ms. Wiesman as Melenie Wiesman and Ms. Keil and Ashley Kell.
REPORT AND RECOMMENDATION - Page 2

Case 4:18-cv-00570-ALM-CAN Document 46 Filed 04/18/19 Page 3 of 20 PagelD #: 216

[Dkt. 13-3]. As part of his plea bargain, Plaintiff waived his right to appeal [Dkt. 13-3 at 3, 5].
Plaintiff is currently fulfilling a period of probation and community service for the conviction.
On August 6, 2018, Plaintiff, proceeding pro se, filed the instant suit against Defendants
Texas Attorney General Ken Paxton, Assistant District Attorney Melanie Wiesman, Assistant
District Attorney Ashley Keil, and Wylie Police Officer Richard Chambers, asserting claims
arising from his state criminal proceedings [Dkt. 1].

Plaintiffs complaint alleges he was

wrongfully convicted of felony possession as a result of perjury, unidentified conspiracies, racial
profiling, and drug-planting [Dkt. 1]. On August 10, 2018, the Court granted Plaintiff in forma
pauperis status, and in connection therewith, ordered Plaintiff file an amended complaint [Dkt. 3].
The Court advised Plaintiff that federal courts have limited ability to consider requests that
undermine the validity of a criminal conviction under Heck v. Humphrey, and further specifically
noted that “Plaintiff is barred from challenging the validity of his criminal conviction in a § 1983
civil action in federal court unless he can first show that another court has already decided that his
conviction is invalid” [Dkt. 3 at 3-4]. The Court directed Plaintiff to file an Amended Complaint
setting forth: (1) each claim Plaintiff seeks to assert under § 1983; and (2) addressing the potential
Heck bar.
On September 6, 2018, Plaintiff filed his Amended Complaint [Dkt. 4].

Plaintiffs

Amended Complaint seeks to recover $300,000 in compensatory and punitive damages for
physical, mental and emotional injuries sustained, plus $4,000.00 for the impound costs of his
wife’s vehicle, as relief for alleged violations of his civil rights under § 1983 and for “First
Amendment Retaliation” [Dkt. 4 at 1, 3].2 Plaintiff asserts that Officer Chambers “planted drugs

2 Plaintiffs Amended Complaint requests injunctive relief be awarded until the close of his case; he clarifies in the
relief section of his Amended Complaint, that as damages, “the only relief sought is $300,000 plus $4,000 for police
taking wifes [sic] car. In compensatory and punitive damages ‘for physical, mental, and emotional injuries sustained
REPORT AND RECOMMENDATION - Page 3

Case 4:18-cv-00570-ALM-CAN Document 46 Filed 04/18/19 Page 4 of 20 PagelD #: 217

in Plaintiff[’]s vehicle. In retaliation for trying to get BBQ pits for free” [Dkt. 4 at 3]. Plaintiff
avers that Officer Chambers was angered by Plaintiffs response that he was “coming all the way
from Arlington[,] Texas to get someone[’]s trash! Which made him angry!!! In retaliation^] he
planted drugs in Plaintiff[’]s vehicle” [Dkt. 4 at 3]. Plaintiff continues that because he filed a
Motion to Dismiss and Motion to Quash in the state criminal proceeding, “this made the D.A.
[Melanie] Wiesman [and] Ashley [Keil] angry!!!... in retaliation^] they stopped the motion hearing
on May 23,2018[,] threatening Plaintiff with a 20 year sentence” [Dkt. 4 at 3]. Aside from naming
Texas Attorney General Ken Paxton in the caption of the case, Plaintiffs Amended Complaint
does not otherwise mention AG Paxton [see Dkt. 4]. AG Paxton’s name is not mentioned once
in the body of the Amended Complaint; as such, the Court is unable to discern or detail his
connection to Plaintiffs claims from the Amended Complaint.
Notably, throughout his Amended Complaint, Plaintiff states “[t]his action [cannot] be
construed as seeking a judgment at odds with his conviction or with the State[’]s calculation of
time to be served in accordance with the underlying sentence” [Dkt. 4 at 1,4].
On December 9, 2018, Defendants Wiesman and Keil filed their Motion to Dismiss
[Dkt. 13]. Defendants Wiesman and Keil contend that Plaintiffs Amended Complaint should be
dismissed because: (1) Plaintiffs claims are barred by the Heck v. Humphrey Doctrine; and
(2) Plaintiff has failed to plead any plausible claim which would defeat Defendants’ 11th
Amendment Immunity, Prosecutorial Immunity, Qualified Immunity, and Official Immunity from
Plaintiffs claims [Dkt. 13 at 2, 6]. Plaintiff responded on December 19, 2018 [Dkt. 21].
The next day, on December 20, 2018, AG Paxton filed his Motion to Dismiss [Dkt. 25].
AG Paxton contends that Plaintiffs Amended Complaint should be dismissed because:

during the retaliation and threatening behavior of DA Office, and retaliatory actions of police planting drugs in his
vehicle” [Dkt. 4 at 4],
REPORT AND RECOMMENDATION - Page 4

Case 4:18-cv-00570-ALM-CAN Document 46 Filed 04/18/19 Page 5 of 20 PagelD #: 218

(1) Plaintiffs claims are barred by the Heck v. Humphrey Doctrine; (2) Plaintiff s claims are barred
by 11th Amendment Immunity; and (3) Plaintiff fails to assert any personal involvement of AG
Paxton [Dkt. 25]. Plaintiff responded on January 14, 2019 [Dkt. 31].
On January 22, 2019, Officer Chambers filed his Motion to Dismiss, or, in the Alternative,
Motion for Summary Judgment [Dkt. 34]. Plaintiff responded on January 31,2019 [Dkt. 37]. Also
on January 31, 2019, Plaintiff filed his “Objection to; Defendants Assertion of the Qualified
Immunity Defense and Sanctions/And Second Motion for Default Judgment Rule 12, and Rule
55(B)(1) and 5 U.S.C. 552(A)” [Dkt. 36].

Officer Chambers replied on February 27, 2019

[Dkt. 44]. The Court takes up each of the pending Motions to Dismiss herein.
APPLICABLE LEGAL STANDARDS
Rule 12(h)(1)
Defendants Wiesman, Keil and AG Paxton move to dismiss Plaintiffs Amended
Complaint on Eleventh Amendment sovereign immunity grounds.3 “When a Rule 12(b)(1) motion
is filed in conjunction with other Rule 12 motions, the court should consider the 12(b)(1)
jurisdictional attack before addressing any attack on the merits.” Ramming v. United States,
281 F.3d 158, 161 (5th Cir. 2001). A Rule 12(b)(1) motion to dismiss allows a party to challenge
the exercise of the Court’s subject matter jurisdiction. Fed. R. Civ. P. 12(b)(1). The Court will
accept all well-pleaded allegations in the complaint as true, and construe those allegations in a
light most favorable to the plaintiff. Truman v. United States, 26 F.3d 592, 594 (5th Cir. 1994).
The party asserting jurisdiction bears the burden of proof for a 12(b)(1) motion to dismiss.
Ramming v. United States, 281 F.3d 158, 161 (5th Cir. 2001). In a Rule 12(b)(1) motion, a party
may also request that a district court decline to exercise supplemental jurisdiction over a pendent

3 Although Defendants Wiesman and Keil cite Rule 12(b)(6) in the applicable standard of review, sovereign immunity
is appropriately considered under Rule 12(b)(1). Truman v. United States, 26 F.3d 592, 594 (5th Cir. 1994).
REPORT AND RECOMMENDATION - Page 5

Case 4:18-cv-00570-ALM-CAN Document 46 Filed 04/18/19 Page 6 of 20 PagelD #: 219

claim following the dismissal of claims establishing the court’s original jurisdiction. See Flores
v. Cty. of Hardeman, 124 F.3d 736, 739 (5th Cir. 1997). Whether a government, its entities, or its
representatives in their official capacity have immunity to suit presents a threshold, jurisdictional
question that courts appropriately consider on a Rule 12(b)(1) motion. Truman, 26 F.3d at 594.
Rule 12(b)(6)
Defendants variously move to dismiss Plaintiffs Amended Complaint pursuant to
Rule 12(b)(6) based on Heck v. Humphrey,4 prosecutorial immunity, qualified immunity, official
immunity, failure to state any personal involvement and/or failure to state a claim. A Rule 12(b)(6)
motion to dismiss argues that, irrespective of jurisdiction, the complaint fails to assert facts that
give rise to legal liability of the defendant. The Federal Rules of Civil Procedure require that each
claim in a complaint include “a short and plain statement... showing that the pleader is entitled
to relief.” Fed. R. Civ. P. 8(a)(2). The claims must include enough factual allegations “to raise a
right to relief above the speculative level.” Bell All. Corp. v. Twombly, 550 U.S. 544, 555 (2007).
Thus, “[t]o survive a motion to dismiss, a complaint must contain sufficient factual matter,
accepted as true, to ‘state a claim to relief that is plausible on its face.’” Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009) (quoting Twombly, 550 U.S. at 570).
The Court must accept as true all well-pleaded facts contained in Plaintiffs Amended
Complaint and view them in the light most favorable to Plaintiff. Baker v. Putnal, 75 F.3d 190,
196 (5th Cir. 1996). In deciding a Rule 12(b)(6) motion, “[factual allegations must be enough to
raise a right to relief above the speculative level.” Twombly, 550 U.S. at 555; Gonzalez v. Kay,
577 F.3d 600, 603 (5th Cir. 2009). The Supreme Court has further expounded upon the Twombly

4 Courts in the Fifth Circuit have frequently considered the validity of claims potentially barred by Heck v. Humphrey
under Rule 12(b)(6) and/or 28 U.S.C. §§ 1915, 1915A. See Hudson v. Hughes, 98 F.3d 868, 871 (5th Cir. 1996);
Henry v. Ken Cty., Texas, No. SA16CV284DAEPMA, 2016 WL 2344231, at *5 (W.D. Tex. May 2, 2016); Camacho
v. City ofEl Paso, Texas, No. EP15CV00318PRMRFC, 2016 WL 3519662, at *21 (W.D. Tex. June 22, 2016).
REPORT AND RECOMMENDATION - Page 6

Case 4:18-cv-00570-ALM-CAN Document 46 Filed 04/18/19 Page 7 of 20 Page ID #: 220

standard, “explaining that ‘[t]o survive a motion to dismiss, a complaint must contain sufficient
factual matter, accepted as true, to state a claim to relief that is plausible on its face.’” Gonzalez,
577 F.3d at 603 (quoting Iqbal, 556 U.S. at 678). “A claim has facial plausibility when the plaintiff
pleads factual content that allows the court to draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Id. “It follows, that ‘where the well-pleaded facts do not permit ■
the court to infer more than the mere possibility of misconduct, the. complaint has alleged—but it
has not shown—that the pleader is entitled to relief.’” Id.
In Iqbal, the Supreme Court established a two-step approach for assessing the sufficiency
of a complaint in the context of a Rule 12(b)(6) motion. First, the Court identifies conclusory
allegations and proceeds to disregard them, for they are “not entitled to the assumption of truth.”
Iqbal, 556 U.S. at 681. Second, the Court “considers] the factual allegations in [the complaint]
to determine if they plausibly suggest an entitlement to relief.” Id. “This standard ‘simply calls
for enough facts to raise a reasonable expectation that discovery will reveal evidence of the
necessary claims or elements.” Morgan v. Hubert, 335 F. App’x 466,470 (5th Cir. 2009) (quoting
In re So. Scrap Material Co., 541 F.3d 584, 587 (5th Cir. 2008); Twombly, 550 U.S. at 556). This
evaluation will “be a context-specific task that requires the reviewing court to draw on its judicial
experience and common sense.” Iqbal, 556 U.S. at 679. In determining whether to grant a motion
to dismiss, a district court may generally not “go outside the complaint.” Scanlan v. Tex. A&M
Univ., 343 F.3d 533, 536 (5th Cir. 2003).
ANALYSIS
To state a claim under § 1983, a plaintiff must allege facts indicating a deprivation of rights
guaranteed by the Constitution and laws of the United States and that this deprivation resulted
from conduct committed by a person acting under color of state law. West v. Atkins, 487 U.S. 42,

REPORT AND RECOMMENDATION - Page 7

Case 4:18-cv-00570-ALM-CAN Document 46 Filed 04/18/19 Page 8 of 20 PagelD #: 221

49-50 (1988). To reiterate, by and through the Motions to Dismiss, Defendants argue that
Plaintiffs claims are barred by Eleventh Amendment immunity, the Heck doctrine, prosecutorial
immunity, qualified immunity, official immunity, failure to state any personal involvement, and/or
failure to state a claim.5
Eleventh Amendment Sovereign Immunity - Defendants Wiesman, Keil, and AG Paxton
The Eleventh Amendment bars (and divests the Court of jurisdiction over) Plaintiffs
claims against Defendants Wiesman, Keil, and AG Paxton in their official capacities.6 A suit
against an official in his official capacity “is no different from a suit against the state itself.” Will
v. Mich. Dep’t ofState Police, 491 U.S. 58, 71 (1989); see also Toliver v. Thomas, No. 3:08-CV0682-N, 2008 WL 3413140, at *3 (N.D. Tex. Aug. 11, 2008) (citing Warnock v. Pecos County,
Tex., 88 F.3d 341,343 (5th Cir. 1996)); Quinn v. Roach, 326 F. App’x 280,292-93 (5th Cir. 2009)
(state prosecutors were entitled to Eleventh Amendment immunity against claims raised against
them in their official capacity). The Eleventh Amendment immunizes states, their agencies, and
state officials acting in their official capacities from “any suit in law or equity, commenced or
prosecuted ... by Citizens of another State, or by Citizens or Subjects of any Foreign State” where
the plaintiff seeks money damages. U.S. Const, amend. XI; see Bd. of Trs. of Univ. of Ala. v.
Garrett, 531 U.S. 356, 363 (2001) (“Although by its terms the Amendment applies only to suits

5 As an initial matter, the Court notes that Plaintiffs assertion that Defendants’ Wiesman, Keil, AG Paxton and Officer
Chambers’s Motions to Dismiss are untimely is unsupported by the record. Defendants Wiesman and Keil were
served on December 4, 2018 [Dkts. 17; 18], and filed their responsive pleading less than twenty-one (21) days later
on December 9, 2018 [Dkt. 13]. AG Paxton was served on December 4, 2018 [Dkt. 16], and filed his responsive
pleading less than twenty-one (21) days later on December 20, 2018 [Dkt. 25]. Officer Chambers was served on
December 3,2018 [Dkt. 19]. Before his answer was due, on December 21,2018, the Court granted Officer Chambers
an extension of time to file any responsive pleadings to January 24, 2019 [Dkt. 27]. On January 22, 2019, within the
deadline set by the Court, Officer Chambers filed his Motion to Dismiss [Dkt. 34]. See Cunningham v. Florio,
417CV00839ALMCAN, 2018 WL 4677812, at *1 (E.D. Tex. Jan. 29, 2018), report and recommendation adopted,
4:17-CV-839, 2018 WL 4677801 (E.D. Tex. Feb. 28, 2018) (“Unless another time is specified by this rule or a federal
statute, ... a defendant must serve an answer within 21 days after being served with the summons and complaint”)
(quoting Fed. R. Civ. P. 12(a)(1)(a)).
6 Plaintiff does not delineate whether he sues Defendants Wiesman, Keil and/or AG Paxton in their official, or
individual capacities, and/or both.
REPORT AND RECOMMENDATION - Page 8

Case 4:18-cv-00570-ALM-CAN Document 46 Filed 04/18/19 Page 9 of 20 PagelD #: 222

against a State by citizens of another State, our cases have extended the Amendment’s applicability
to suits by citizens against their own States.”).
But “[tjhere are two fundamental exceptions to the general rule that bars an action in federal
court filed by an individual against a state:” Congress may abrogate states’ immunity under
Section 5 of the Fourteenth Amendment or states may consent to suit notwithstanding their
immunity. Pace v. Bogalusa City Sch. Bd., 403 F.3d 272, 276-77 (5th Cir. 2005). For waiver by
abrogation to inhere, Congress must have “unequivocally expressed its intent to abrogate [a state’s]
immunity” and must have “acted pursuant to a valid grant of constitutional authority.” Tennessee
v. Lane, 541 U.S. 509, 517 (2004). On the other hand, if a state “knowingly and voluntarily”
waives its immunity through, for example, acceptance of conditional federal funds, it has
consented to suit. Pace, 403 F.3d at 277-79 (emphasis in original). The Fifth Circuit has held that
Congress did not abrogate states’ immunity to suit in enacting the Civil Rights Act of 1871, which
contains § 1983, Sessions v. Rusk State Hosp., 648 F.2d 1066, 1069 (5th Cir. 1981), and neither
has Texas consented to such suits, see, e.g., Chao v. Dars of Tex., No. 4:15-CV-169, 2015 WL
6522818, at *5-6 (E.D. Tex. Oct. 27, 2015) (citing Aguilar v. Tex. Dep’t of Criminal Justice,
160 F.3d 1052, 1054 (5th Cir. 1998)). See also Oliver v. Scott, 276 F.3d 736, 742 (5th Cir. 2002)
(noting the Fifth Circuit has held multiple times that the Eleventh Amendment bars recovery of
money damages under § 1983 from Texas officials in their official capacity). In addition, the Fifth
Circuit has repeatedly held that a District Attorney and Assistant District Attorneys sued in their
official capacities are state officials, not local, for purposes of liability arising out of their
< prosecutorial decisions and are therefore entitled to Eleventh Amendment immunity. Shanafell v.
Office of the Attorney General, et. ai, 213 F.3d 638 (5th Cir. 2000); Quinn v. Roach, 326 Fed.

REPORT AND RECOMMENDATION - Page 9

Case 4:18-cv-00570-ALM-CAN Document 46 Filed 04/18/19 Page 10 of 20 PagelD #: 223

App’x 280 (5th Cir. 2009). Accordingly, Plaintiffs claims against each of Defendants Wiesman,
Keil, and AG Paxton in their official capacities are claims asserted against the State of Texas.
Plaintiff asks for “$300,000 plus $4,000. . . in compensatory and punitive damages”
[Dkt. 4 at 4]. Insofar as Plaintiff seeks money damages against Defendants Wiesman, Keil, and
AG Paxton in their official capacities for their alleged violations of Plaintiff s civil rights, these
claims are barred by Eleventh Amendment sovereign immunity.7 Accordingly, the Eleventh
Amendment bars Plaintiffs claims under § 1983 against Defendants Wiesman, Keil, and AG
Paxton in their official capacities and in any event, divests the Court of jurisdiction over same.
This leaves Plaintiffs § 1983 claims against Defendants Wiesman, Keil, and AG Paxton in their
individual capacities, as well as Plaintiffs claims against Officer Chambers.
Heck Bar - Defendants Wiesman, Keil, AG Paxton, and Officer Chambers
Defendants Wiesman, Keil, AG Paxton, and Officer Chambers, each argue that Plaintiffs
claims are barred by Heck v. Humphrey. Defendants Wiesman and Keil further specifically detail
that “Plaintiff has failed to show that his conviction or sentence has been reversed, expunged,
invalidated, or otherwise called into question. I[n] fact, it has not. Further, a judgment in favor of
Plaintiff would necessarily imply the invalidity of his conviction; thus, this lawsuit is barred by
Heck” [Dkt. 13 at 7]. And Officer Chambers echoes, that “[ejven if all of Plaintiff s allegations in
his Amended Complaint are true, which Officer Chambers vehemently denies, Plaintiffs claims
[]are barred by HecIC [Dkt. 34 at 10].

7 The Eleventh Amendment’s bar to suit does not extend to claims for injunctive relief against state officials. “[I]n
determining whether the doctrine of Ex parte Young avoids an Eleventh Amendment bar to suit, a court need only
conduct a straightforward inquiry into whether [the] complaint alleges an ongoing violation of federal law and seeks
relief properly characterized as prospective.” Va. Office for Prot. & Advocacy v. Stewart, 563 U.S. 247, 255-56 (2011)
(citations and internal quotations omitted)). Because Plaintiff fails to allege, nor does the Court discern from its review
of the pleadings, that Defendants in their official capacities have engaged in any ongoing violation of federal law,
sovereign immunity also shields Defendants from any claim by Plaintiff for injunctive relief. See, e.g., Pleasant v.
Sinz, No. 9:15-cv-00166-MHS, 2016 WL 4613359, at *3, *5 (E.D. Tex. Aug. 5, 2016); Citizens Against the Bar v.
Travis Cty., No. A-13-CV-528-LY, 2014 WL 7338891, at *1, *3-4 (W.D. Tex. Dec. 22, 2014).
REPORT AND RECOMMENDATION - Page 10

Case 4:18-cv-00570-ALM-CAN Document 46 Filed 04/18/19 Page 11 of 20 PagelD #: 224

In Heck v. Humphrey, 512 U.S. 477 (1994), “the Supreme Court unequivocally held that
no cause of action exists under § 1983 for state prisoners who bring civil rights actions for
allegedly unconstitutional convictions or imprisonment, or otherwise collaterally attacking the
constitutionality of the convictions that form the basis for their incarceration, unless the state
prisoner can show that the state criminal conviction he is collaterally attacking has been invalidated
by a state appellate court, a state or federal habeas court, or some other state authority with
jurisdiction to do so.” Henry v. Kerr Cty., Texas, No. SA:16-CV-284-DAE-PMA, 2016 WL
2344231, at *5 (W.D. Tex. May 2, 2016) (emphasis in original) (citing Heck, 512 U.S. 477). “The
rule applies with equal force where a plaintiff seeks injunctive or declaratory relief which, if
granted, would necessarily imply that the state conviction is invalid.” Melendez v. Gutierrez,
No. EP-11 -CV-136-PRM-DCG, 2011 WL 3847136, at *4 (W.D. Tex. July 26, 2011), report and
recommendation adopted, No. EP-11-CV-136-PRM, 2011 WL 3846835 (W.D. Tex. Aug. 30,
2011) (citing Mann v. Denton Cty. Tex., 364 F. App’x 881, 882 (5th Cir. 2010)); see also Wilkinson
v. Dotson, 544 U.S. 74, 81-82, (2005) (“[A] state prisoner’s § 1983 action is barred (absent prior
invalidation)—no matter the relief sought (damages or equitable relief), no matter the target of the
prisoner’s suit (state conduct leading to conviction or internal prison proceedings)—if success in
that action would necessarily demonstrate the invalidity of confinement or its duration.”); Clarke v.
Stalder, 154 F.3d 186, 190-91 (5th Cir. 1998) (en banc) (applying Heck to bar injunctive relief).
Heck's favorable-termination rule also applies to § 1983 suits by plaintiffs who are no longer in
custody. Black v. Hathaway, 616 F. App’x 650, 653 (5th Cir. 2015), cert, denied, 136 S. Ct. 982
(2016) (citing Randell v. Johnson, 227 F.3d 300, 300 (5th Cir. 2000)).
Plaintiff pleaded guilty to possession of a controlled substance under a gram and was
sentenced to two years imprisonment on May 23, 2018 [Dkt. 13-3]. The majority of Plaintiffs

REPORT AND RECOMMENDATION - Page 11

Case 4:18-cv-00570-ALM-CAN Document 46 Filed 04/18/19 Page 12 of 20 PagelD #: 225

Amended Complaint recounts his version of the traffic stop and search of his vehicle which led to
his conviction for possession of a controlled substance. Plaintiff contends that, in violation of
Plaintiffs constitutional rights, Officer Chambers planted the contraband in his vehicle and
Defendants Wiesman and Keil threatened him with a twenty (20) year sentence after he filed
several motions in his criminal proceedings, and proceeded to prosecute him, even in spite of
police misconduct. The entirety of Plaintiffs claims revolves around his averment that he has
been wrongfully convicted of this crime. In the instant case, a judgment in favor of Plaintiff would
necessarily imply the invalidity of his conviction (i.e., that he was the victim of Officer Chambers’s
scheme to plant the contraband in his vehicle, resulting in his conviction, and the prosecutors
ignored the allegedly illegal search and threatened him with a hefty sentence when he defended
his case). See e.g, Conlan v. King, etai, 682 F. App’x 345 (5th Cir. 2017) (claims of false arrest,
forced self-incrimination, and illegal seizure of evidence barred by Heck)-, Villegas v. Galloway,
et ai, 458 F. App’x 334, 337 (5th Cir. 2012) (civil rights claims such as ineffective assistance of
counsel, use of perjured testimony and fabricated evidence, and suppression of favorable evidence
are barred by Heck); Albarado v. City of Abilene, et al., No.l:15-CV-220-P(BL), 2016 WL
1583772 (N.D. Tex. March 18, 2016) (claims that detective engaged in illegal interrogation, that
prosecutor withheld reports, and that police, prosecutor, and judge engaged in conspiracy barred
by Heck), report, and recommendation adopted, 2016 WL 1572612 (N.D. Tex. April 19, 2016).
Plaintiff tries to avoid the impact of Heck stating “Plaintiff respectfully withdraws any
questions involving the validity of the conviction or duration of the sentence to comply with;
Heck” and further states “[t]his action cannot be construed as seeking a judgment at odds with his
conviction. Or with the States calculation of time to be served in accordance with the underlying
sentence.” [Dkt. 4 at 1-2].

REPORT AND RECOMMENDATION - Page 12

Case 4:18-cv-00570-ALM-CAN Document 46 Filed 04/18/19 Page 13 of 20 PagelD #: 226

Notwithstanding Plaintiffs efforts to circumvent the doctrine it remains clear that
Plaintiffs claims fall within the purview of Heck. Plaintiffs conviction has not been reversed on
direct appeal, expunged by executive order, declared invalid by a state tribunal, or called into
question by a federal court’s issuance of a writ of habeas corpus. Plaintiffs conviction remains
valid; indeed, Plaintiff is currently fulfilling a term of probation on the conviction. And to reiterate,
a judgment in Plaintiffs favor herein—finding that Defendants retaliated against him by planting
the drugs underlying his conviction or otherwise—would necessarily imply the invalidity of his
conviction. Thus, despite Plaintiffs averments to the contrary, it is clear that Plaintiffs claims
necessarily seek to and would undermine the validity of his conviction. “Under the holding in
Heck, [PJlaintiff may not employ this § 1983 action to collaterally attack any of those state criminal
convictions.” Henry, 2016 WL 2344231, at *6. Accordingly, the entirety of Plaintiffs claims
under § 1983 are.barred by Heck v. Humphrey.
Prosecutorial Immunity - Defendants Wiesman and Keil
Plaintiff claims that Defendants, as prosecutors for Collin County, threatened Plaintiff with
a twenty (20) year sentence as retaliation for Defendant’s criminal motions and ignored police
misconduct [Dkt. 4]. As discussed supra, insofar as Plaintiff seeks relief from Defendants in their
official capacities for any alleged violation of Plaintiffs constitutional rights, those claims are
barred by Eleventh Amendment immunity. Further, to the extent that Plaintiff asserts he is entitled
to relief under § 1983 against Defendants in their individual capacities, these claims are similarly
barred by absolute prosecutorial immunity.
“Prosecutors are absolutely immune from § 1983 suits in their individual capacities for
actions that are within the scope of their prosecutorial duties.” Quinn, 326 F. App’x at 292 (citing
Brooks v. George County, Miss., 84 F.3d 157, 168 (5th Cir. 1996)); see also Imbler v. Pachtman,

REPORT AND RECOMMENDATION-Page 13

Case 4:18-cv-00570-ALM-CAN Document 46 Filed 04/18/19 Page 14 of 20 PagelD #: 227

424 U.S. 409 (1976). “Acts undertaken by the prosecutor in preparing for the initiation of judicial
proceedings or for trial, and which occur in the course of his role as an advocate for the State, are
entitled to the protections of absolute immunity.” Boyd v. Biggers, 31 F.3d 279, 285 (5th Cir.
1994). Absolute immunity protects prosecutors from all liability even when they act maliciously,
wantonly, or negligently. Morrison v. City of Baton Rouge, 761 F.2d 242, 248 (5th Cir. 1985)
(holding prosecutors were immune from claims alleging they improperly presented evidence to a
grand jury). “Prosecutorial immunity, however, applies even if the prosecutor is accused of
knowingly using perjured testimony, withholding exculpatory evidence, and failing to make full
disclosures of facts. State prosecutors are absolutely immune for their actions intimately associated
with the judicial process, including their actions in seeking the issuance of an arrest warrant.”
Parsons v. Thompson, No. 3:17-CV-1796-G-BN, 2017 WL 3279366, at *1 (N.D. Tex. July 11,
2017) (Horan, J.), report and recommendation adopted, No. 3:17-CV-1796-G (BN), 2017 WL
3278911 (N.D. Tex. Aug. 1, 2017) (quoting DeLeon v. City of Dallas, No. 3:02-cv-1097-K,
2003 WL 22244773, at *1 (N.D. Tex. Sept. 16, 2003), reversed in part on other grounds,
141 F. App’x258 (5thCir. July 7,2005);i?qyd, 31 F.3dat285). Vigorously pursuing plea bargains
with criminal defendants is part of a prosecutor’s role. See Russell v. Millsap, 781 F.2d 381, 383
(5th Cir. 1985); Groom v. Fickes, 966 F. Supp. 1466, 1473 (S.D. Tex. 1997) (“attempting to
negotiate a plea agreement with the plaintiff enjoys absolute immunity”).

The Fifth Circuit has

repeatedly found in considering similar claims asserted against the District Attorney and Assistant
District Attorneys of Collin County that prosecutorial immunity applies to bar such claims.
Shanafelt, 213 F.3d 638; Quinn, 326 F. App’x 280.
Against this backdrop/as to all claims alleged against Defendants Wiesman and Keil, the
acts identified in Plaintiffs Amended Complaint were undeniably performed in the scope of their

REPORT AND RECOMMENDATION - Page 14

Case 4:18-CV-00570-ALM-CAN Document 46 Filed 04/18/19 Page 15 of 20 PagelD #: 228

prosecutorial functions, such as Defendants’ decisions to initiate a criminal prosecution, negotiate
plea agreements, and argue against Plaintiffs criminal motions [Dkt. 4].

Defendants are

absolutely immune for their decision to initiate criminal proceedings against Plaintiff and
vigorously pursue a plea bargain in Plaintiffs case. See Van de Kamp v. Goldstein, 555 U.S. 335,
341 (2009). Accordingly, Plaintiffs claims under § 1983 against Defendants Wiesman and Keil
are barred by prosecutorial immunity.
Failure to Allege Any Personal Involvement - AG Paxton
In addition, AG Paxton argues that Plaintiffs claims against AG Paxton should be
dismissed because:
he fails to state a plausible claim alleging the personal involvement of Defendant
Paxton or how Paxton’s involvement resulted in a violation of Plaintiffs rights.
Plaintiff does not assert sufficient facts above the speculative level, or any particular
facts, in his complaint to show that Defendant Paxton was involved in the alleged
retaliatory adverse acts. Plaintiff merely names Paxton as a party to Plaintiffs
lawsuit. In his Statement of Claim, Plaintiff does not state evidence, a factual basis,
or any certainty that Defendant Paxton retaliated against Plaintiff, threatened
Plaintiff, or colluded with Defendants Chambers, Wiesman, or Kells to retaliate
against or threaten Plaintiff
[Dkt. 25 at 4].

Plaintiff responds that “Defendant is involved due to his job description”

[Dkt. 31 at 1], namely his responsibilities to “secur[e] justice for Texans by investigating and
prosecuting criminal activities” and “protect[] Texans from fraud” [Dkt. 31-1].
Defendants are entitled to proper notice of the claims brought against them. See Pompura
v. Willis, 4:16-cv-766 (E.D. Tex. 2017) (Priest-Johnson, J.) (“[A] § 1983 claim requires personal

involvement in acts causing the deprivation of a Plaintiffs constitutional rights.”) (citing Lozano
v. Smith, 718 F.2d 756, 768 (5th Cir. 1983)); see also Twombly, 550 U.S. at 555 (“Federal Rule of

Civil Procedure 8(a)(2) requires only ’a short and plain statement of the claim showing that the

8 Because the Court finds that Defendants are entitled to absolute prosecutorial immunity, the Court does not reach
their remaining argument that they are also entitled to qualified immunity.
REPORT AND RECOMMENDATION - Page 15

Case 4:18-cv-00570-ALM-CAN Document 46 Filed 04/18/19 Page 16 of 20 PagelD #: 229

pleader is entitled to relief,’ in order to ‘give the defendant fair notice of what the. . . claim is and
the grounds upon which it rests.’”) (quoting Conley v. Gibson, 355 U.S. 41,47 (1957)).
“[A] plaintiff bringing a section 1983 action must specify the personal involvement of each
defendant.” Murphy v. Kellar, 950 F.2d 290, 292 (5th Cir. 1992). “A complaint does not satisfy
the requirements of Iqbal and Twombly by lumping together all defendants, while providing no
factual basis to distinguish their conduct. Del Castillo v. PMIHoldings N. Am. Inc., No. 4:14-CV3435,2015 WL 3833447, at *6 (S.D. Tex. June 22,2015). As to each defendant sued in his or her
individual capacity, Plaintiff must allege how that defendant was personally involved in or had
direct responsibility for the incidents that caused Plaintiffs alleged injury. See id. Broadly
construing his pleadings, Plaintiff does not raise any factual allegations of individualized conduct
taken by AG Paxton in this instant case. Indeed, Plaintiff does not raise any allegations whatsoever
against AG Paxton in the body of his Amended Complaint, and all of Plaintiffs allegations
directed to AG Paxton in his Response involve generalized responsibilities of the AG’s Office,
which remain unconnected to the events in the instant case. Insofar as Plaintiff seeks to impose
liability on AG Paxton because of his perceived supervisory role, § 1983 does not impose vicarious
or respondeat-superior liability on officials for their subordinates’ actions. Pompura, 4:16-cv-766
(citing Bigfordv Taylor, 834 F.2d 1213,1220 (5th Cir. 1988)); see also Connickv. Thompson, 563
U.S. 51, 60 (2011) (each defendant can only be held responsible solely for “their own illegal acts”).
While a claim for failure to supervise may be asserted under § 1983, a Plaintiff must show such
failure was grossly negligent and that it caused the violation; that the supervisor’s actions caused
or were the moving force in causing plaintiffs harm. See Pompura, 4:16-cv-766 (citing Bigford,
834 F.2d at 1220); Vela v. White, 703 F.2d 147, 153 (5th Cir. 1983). As Plaintiff does not allege
any personal involvement by AG Paxton, he has failed to establish that AG Paxton caused, was a

REPORT AND RECOMMENDATION - Page 16

Case 4:18-cv-00570-ALM-CAN Document 46 Filed 04/18/19 Page 17 of 20 PagelD #: 230

moving force, or was even involved in any way with Plaintiffs claims. Plaintiffs claims against
AG Paxton in his individual capacity should be dismissed under Rule 12(b)(6).

'

Section 1983 Claim - Officer Chambers
As .noted above, Plaintiff raises a claim under § 1983 for a violation of his First Amendment
rights against Officer Chambers [Dkt. 4]. Officer Chambers argues that Plaintiffs claims against
Officer Chambers are barred by qualified immunity, and specifically should be dismissed because:
The pleadings and evidence do not meet the standard to establish a violation of
Plaintiffs Constitutional rights... .Officer Chambers did not violate Plaintiffs
First Amendment rights by retaliating in response to free speech because Plaintiff
was not engaged in a constitutionally protected activity under the First
Amendment. . . .Plaintiff “trying to get BBQ pits for free” does not have a
communicative element. Plaintiff was not trying to send a message or express an
idea by driving to go pick up a cooking appliance off the sidewalk. . . . Since
Plaintiff cannot prove that he was engaged in a protected form of First Amendment
expression, he cannot prove a constitutional violation necessary to overcome
Qualified Immunity.
[Dkt. 34 at 12-14]. Plaintiff responds that there is “no need to show a constitutional violation, said
officer conduct was unlawful” [Dkt. 37 at 1].
To state a claim under § 1983, a plaintiff must allege facts indicating a deprivation of rights
guaranteed by the Constitution and laws of the United States and that this deprivation resulted
from conduct committed by a person acting under color of state law. West v. Atkins, 487 U.S. 42,
49-50 (1988). “[T]he First Amendment prohibits not only direct limitations on speech but also
adverse government action against an individual because of her exercise of First Amendment
freedoms.” Klein v. Walker, l:14-CV-00509-RC-ZJH, 2016 WL 9242015, at *3 (E.D. Tex. June
10, 2016), report and recommendation adopted, l:14-CV-00509-RC, 2016 WL 3995731 (E.D.
Tex. July 25, 2016) (quoting Colson v. Grohman, 174 F.3d 498, 508 (5th Cir. 1999)). “Ordinary
citizens may recover for retaliation in violation of the First Amendment if they can show: ‘(1) they
were engaged in constitutionally protected activity, (2) the [defendant’s] actions caused them to

REPORT AND RECOMMENDATION - Page 17

Case 4:18-cv-00570-ALM-CAN Document 46 Filed 04/18/19 Page 18 of 20 PagelD #: 231

suffer an injury that would chill a person of ordinary firmness from continuing to engage in that
activity, and (3) the [defendant’s] adverse actions were substantially motivated against the
[plaintiffs] exercise of constitutionally protected conduct.’” Id. (quoting Keenan v. Tejeda,
290 F.3d 252,258 (5th Cir. 2002)). “The Fifth Circuit’s decision in Keenan states that, in order to
satisfy the second element of a free speech retaliation claim, the plaintiff must make ‘some
showing that the [plaintiffs] exercise of free speech has been curtailed.”’ Id. (quoting Keenan,
290 F.3d at 259); see also Mills v. Bogalusa, CIV.A. 13-5477, 2014 WL 2993426; at *3 (E.D. La.
July 2,2014) (granting motion to dismiss where, even assuming the alleged retaliation would deter
a person of ordinary firmness, the plaintiffs claim failed because he did not allege that his speech
was actually curtailed)). “In the context of retaliatory arrests, the Fifth Circuit has mandated that
‘courts need to be alert to arrests that are prompted by constitutionally protected speech.

Adaway

v. City of Jasper, Texas, 1:16-CV-117, 2017 WL 5641535, at *10 (E.D. Tex. Apr. 28, 2017)
(quoting Baeza v. Becker, No. SA-14-CV-659-XR, 2015 WL 6127190, at *9 (W.D. Tex. Oct. 15,
2015) (quoting Mesa v. Prejean, 543 F.3d 264, 273 (5th Cir. 2008))). “Nonetheless, ‘if an officer
has probable cause to arrest an individual for a crime, that individual cannot make out a claim for
retaliatory arrest by contemporaneously shouting police officers are corrupt.

Id. (quoting Baeza,

2015 WL 6127190, at *9). “Thus, where probable cause exists, the plaintiffs claim that [his]
speech, as opposed to [his] criminal conduct, was the motivation for [his] arrest must fail,
regardless of whether [his] speech was protected by the First Amendment.” Id. (citing Baeza,
2015 WL 6127190, at *9). “Indeed, the Supreme Court of the United States has stated that it ‘has
never recognized a First Amendment right to be free from a retaliatory arrest that is supported by
probable cause.”’ Id. (citing Reichle v. Howards, 566 U.S. 658 (2012)).

REPORT AND RECOMMENDATION - Page 18

Case 4:18-cv-00570-ALM-CAN Document 46 Filed 04/18/19 Page 19 of 20 PagelD #: 232

In the instant case, Plaintiffs arrest was supported by probable cause. Plaintiff consented
to Officer Chambers’s search of his vehicle and in searching the vehicle, Officer Chambers
discovered the contraband, thereby providing probable cause for Plaintiffs arrest for possession
of a controlled substance. See United States v. Beltran, 650 F. App’x 206, 207 (5th Cir. 2016).
Furthermore, Plaintiff was indicted by a grand jury for possession of a controlled substance.
Conrad v. Krc, No. 6:15-CV-77, 2016 WL 585373B, at *7 (E.D. Tex. June 17, 2016), affd, 678
F. App’x 236 (5th Cir. 2017) (dismissing Plaintiffs § 1983 claim for retaliation in violation of
Plaintiffs First Amendment rights because “Conrad was also indicted by a grand jury for the
offense of Assault on a Public Servant. Defendants have shown probable cause for the charges
pursued against Conrad.”).

Accordingly, even assuming that the Plaintiff was arrested in

retaliation for his comments to Officer Chambers, his claim necessarily fails because he has no
right to be free from a valid arrest that is also motivated by ulterior reasons and supported by
probable cause.

Plaintiff cannot prove that he was engaged in a protected form of First

Amendment expression; he cannot prove a constitutional violation in connection with Officer
Chambers’s conduct.9
CONCLUSION AND RECOMMENDATION
Based on the foregoing, the undersigned recommends that each of Defendants Collin
County Assistant District Attorneys Melanie Wiesman and Ashley Keil’s Motion to Dismiss
Pursuant to Fed. R. Civ. P. 12(b)(6) [Dkt. 13], Defendant Ken Paxton’s Motion to Dismiss
Pursuant to Fed. R. Civ. P. 12(b)(1) and Fed. R. Civ. P. 12(b)(6) [Dkt. 25], and Defendant Richard
Chambers’s Motion to Dismiss [Dkt. 34] be GRANTED, and that Plaintiffs “Objection to;
Defendant[’]s Assertion of the Qualified Immunity Defense and Sanctions/And Second Motion

9 Because the Court finds that Officer’s Chambers Motion to Dismiss should be granted and Plaintiffs claims be
dismissed with prejudice, the Court does not reach Officer Chambers’s Motion for Summary Judgment arguments.
REPORT AND RECOMMENDATION - Page 19

Case 4:18-cv-00570-ALM-CAN Document 46 Filed 04/18/19 Page 20 of 20 PagelD #: 233

for Default Judgment Rule 12, and Rule 55(B)(1) and 5 U.S.C. 552(A)” [Diet. 36] be DENIED.
The undersigned further specifically recommends that Plaintiffs § 1983 claims against Defendants
Wiesman, Keil, and AG Paxton in their official capacities should be DISMISSED WITHOUT
PREJUDICE, and Plaintiffs § 1983 claims against Defendants Wiesman, Keil, AG Paxton in
their individual capacities and Plaintiffs claims against Officer Chambers should be DISMISSED
WITH PREJUDICE.
Within fourteen (14) days after service of the magistrate judge’s report, any party must
serve and file specific written objections to the findings and recommendations of the magistrate
judge. 28 U.S.C. § 636(b)(1)(C). In order to be specific, an objection must identify the specific
finding or recommendation to which objection is made, state the basis for the objection, and
specify the place in the magistrate judge’s report and recommendation where the disputed
determination is found. An objection that merely incorporates by reference or refers to the briefing
before the magistrate judge is not specific.
Failure to file specific, written objections will bar the party from appealing the unobjectedto factual findings and legal conclusions of the magistrate judge that are accepted by the district
court, except upon grounds of plain error, provided that the party has been served with notice that
such consequences will result from a failure to object. See Douglass v. United Servs. Auto. Ass ’n,
79 F.3d 1415, 1417 (5th Cir. 1996) (en banc), superseded by statute on other grounds, 28 U.S.C.
§ 636(b)(1) (extending the time to file objections from ten to fourteen days).
SIGNED this 18th day of April, 2019.

Christine A. Nowak
UNITED STATES MAGISTRATE JUDGE
REPORT AND RECOMMENDATION - Page 20

Case 4:18-cv-00570-ALM-CAN Document 47 Filed 04/18/19 Page 1 of 11 PagelD #: 234

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION
TONY LAMAR VANN,

§
§
§

Plaintiff,

§
v.

§
§
§
§
§

KEN PAXTON, ET AL.
Defendants.

CIVIL ACTION NO. 4:18-CV-00570-ALMCAN

REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE JUDGE
Pending before the Court is Defendants Collin County Assistant District Attorneys Melanie
Wiesman and Ashley KeiTs Motion for Sanctions and to Declare Plaintiff a Vexatious Litigant
[Dkt. 42], Having considered the Motion, and all other relevant filings, the Court recommends
that Defendants’ Motion for Sanctions be DENIED.

BACKGROUND
On April 18, 2017, Wylie Police Officer Richard Chambers executed a traffic stop of
Plaintiffs vehicle; Plaintiff subsequently consented to a search of the vehicle [Dkt. 4-1 at 2].
Officer Chambers searched the vehicle, finding a “small clear baggie with a white substance,”
which field-tested positive for cocaine [Dkt. 4-1 at 2]. Officer Chambers then arrested Plaintiff
[Dkt. 4-1 at 3], Plaintiff was indicted in July 2017, for felony possession of a controlled substance
under one gram [Dkt. 13-2], and on September 19, 2017, a criminal case was filed based on the
indictment in state court [Dkt. 13-1]. State of Texas v. Tony Lamar Vann, Cause No. 401-830372017. The Government was represented by Collin County Assistant District Attorneys Melanie

REPORT AND RECOMMENDATION - Page 1

Case 4:18-cv-00570-ALM-CAN Document 47 Filed 04/18/19 Page 2 of 11 PagelD #: 235

Wiesman and Ashley Keil.

During the state criminal proceedings, Plaintiff filed numerous

pleadings, including a Motion to Dismiss [Dkt. 4-1 at 1] and a Motion to Quash [Dkt. 4-1 at 4],
both seeking to challenge different procedural and evidentiary aspects of his criminal charges.
Plaintiff, who was represented by counsel, entered a guilty plea on May 23, 2018 to possession of
a controlled substance under one gram, and was sentenced to two (2) years of confinement and
three (3) years of post-conviction community supervision [Dkt. 13-3]. As part of his plea bargain,
Plaintiff waived his right to appeal [Dkt. 13-3 at 3, 5]. Plaintiff is currently fulfilling a period of
probation and community service for the conviction.
On August 6, 2018, Plaintiff, proceeding pro se, filed the instant suit against Defendants
AG Paxton, Wiesman, Keil, and Officer Chambers, asserting claims arising from his state criminal
proceedings [Dkt. 1], On September 6, 2018, Plaintiff filed his Amended Complaint, seeking
$300,000 in compensatory and punitive damages as relief under § 1983 for “First Amendment
Retaliation” [Dkt. 4 at 3]. Plaintiff asserts that Officer Chambers “planted drugs in Plaintiff[’]s
vehicle. In retaliation for trying to get BBQ pits for free” [Dkt. 4 at 3]. Plaintiff continues that
because he filed a Motion to Dismiss and Motion to Quash in the state criminal proceeding, “this
made the D.A. [Melanie] Wiesman [and] Ashley [Keil] angry!!!...in retaliation^] they stopped the
motion hearing on May 23, 2018[,] threatening Plaintiff with a 20 year sentence” [Dkt. 4 at 3].
Aside from naming Texas Attorney General Ken Paxton in the caption of the case, Plaintiffs
Amended Complaint does not mention AG Paxton [see Dkt. 4].
On December 9, 2018, Defendants Wiesman and Keil filed their Motion to Dismiss
[Dkt. 13].

On December 20, 2018, AG Paxton filed his Motion to Dismiss [Dkt. 25].

On

January 22, 2019, Officer Chambers filed his Motion to Dismiss [Dkt. 34]. The undersigned has

Plaintiff mis-identified Ms. Wiesman as Melenie Wiesman and Ms. Keil and Ashley Kell.
REPORT AND RECOMMENDATION - Page 2

Case 4:18-cv-00570-ALM-CAN Document 47 Filed 04/18/19 Page 3 of 11 PagelD #: 236

entered a Report and Recommendation, recommending that Plaintiff’s claims be dismissed;
specifically, that Plaintiffs § 1983 claims against Defendants Wiesman and Keil were barred by
the Eleventh Amendment; prosecutorial immunity, and the Heck doctrine.
On February 5, 2019, Defendants Wiesman and Keil filed the instant Motion for Sanctions,
seeking their attorney fees and costs, the imposition of additional monetary sanctions, a pre-filing
injunction, and a declaration that Plaintiff is a vexatious litigant [Dkt. 41 at 11]. Defendants
Wiesman and Keil contend that they are entitled to the requested relief under each of 28 U.S.C.
§ 1927, 28 U.S.C. § 1651(a),2 and Federal Rule of Civil Procedure 11.
DISCUSSION
Section 1927 Sanctions
Defendants Wiesman and Keil request sanctions against pro se Plaintiff pursuant to § 1927;
however, “the Fifth Circuit has not determined whether a. pro se litigant can be sanctioned
under § 1927.” Phillips v. Austin Diagnostic Surgery Ctr., No. AU-17-CV-940-SS, 2018 WL
1128147, at *2 (W.D. Tex. Mar. 1,2018), appeal dismissed sub nom. Phillips v. Austin Diagnostic
Clinic Surgery Ctr., No. 18-50184, 2018 WL 4239505 (5th Cir. May 11, 2018) (citing Simmons v.
Methodist Hosps. of Dallas, 632 F. App’x 784, 787 n.5 (5th Cir. 2015) (“We note that this court
has not yet addressed whether a pro se litigant can be subject to sanctions under section 1927 and
need not do so today.”). “[0]ther courts in this circuit are split as to whether a pro se litigant can
be subject to sanctions under § 1927, with the majority finding they cannot. See Derosa-Grund v.
Time Warner Inc., No. 4:15-CV-02763, 2015 WL 12806619, at *2 n.2 (S.D. Tex. Dec. 22, 2015)
(declining to sanction a pro se litigant under § 1927, and noting that “[i]t is less clear whether
Section 1927 sanctions can be imposed on a pro se plaintiff’); Celestine v. PNK (Lake Charles),

2 Defendants Wiesman and Keil reference 28 USC § 165(a); the Court assumes this is a typographical error and
28 U.S.C. § 1651(a) is the intended statutory reference.
REPORT AND RECOMMENDATION - Page 3

Case 4:18-cv-00570-ALM-CAN Document 47 Filed 04/18/19 Page 4 of 11 PagelD #: 237

LLC, No. CJV.A. 14-172, 2014 WL 5092025, at *4 (W.D. La. Oct. 9, 2014) (finding § 1927 did
not apply to pro se parties) (citing Jones v. First Bank & Trust, 2010 WL 2836150 at *8 (E.D. La.
2010)); Swineyv. Texas, No. SA-06-CA-0941 FB NN, 2008 WL 2713756, at *3 (W.D. Tex. July 3,
2008) (refusing to analyze whether fees may be assessed against a pro se litigant under
§ 1927); Neely v. Regions Bank, Inc., No. 404CV106,2007 WL 571111, at *4 (N.D. Miss. Feb. 20,
2007), affd, 262 F. App’x 630 (5th Cir. 2008) (finding 28 U.S.C. § 1927 only applies to
attorneys). Compare McCully v. Stephenville Indep. Sch. Dist., No. 4:13-CV-702-A, 2013 WL
6768053, at *2 (N.D. Tex. Dec. 23,2013) (allowing sanctions under § 1927), with Allen v. Travis,
No. 3:06-CV-1361-M, 2007 WL 1989592, at *6 (N.D. Tex. July 10,2007) (not allowing sanctions
under § 1927).
Given the lack of settled authority, this Court should deny Defendants Wiesman and Keil’s
request to impose § 1927 sanctions on Plaintiff; this Court is persuaded that § 1927 is not intended
to apply to non-attorney pro se litigants. See Barcroft v. Gibbs, No. 4:16-CV-00562-ALMCAN,
2017 WL 1499247, at *5 (E.D. Tex. Apr. 5, 2017), report and recommendation adopted, 4:16CV-562, 2017 WL 1498532 (E.D. Tex. Apr. 25, 2017) (“this Court is persuaded [] that § 1927 is
not intended to apply to non-attorney pro se litigants.”).
Rule 11 and Section 1651(a) Sanctions
Turning next to Defendants Wiesman and Keil’s remaining arguments for sanctions,
“Rule 11(b) provides that by presenting a filing to a court, attorneys and pro se litigants are
certifying that to the best of their belief, after reasonable inquiry, (1) the filing is not being
presented for an improper purpose, such as harassment, delay, or increasing costs; (2) any claims
and/or defenses in the filing are supported by either existing law or by a nonfrivolous argument
for changing existing law or establishing new law; and (3) factual contentions have or will likely

REPORT AND RECOMMENDATION - Page 4

Case 4:18-cv-00570-ALM-CAN Document 47 Filed 04/18/19 Page 5 of 11 PagelD #: 238

have evidentiary support.” Copeland v. Minton, No. 3:16-CV-726-L, 2016 WL 7971584, at *8
(N.D. Tex. Dec. 29, 2016), report and recommendation adopted, 3:16-CV-726-L, 2017 WL
303025 (N.D. Tex. Jan. 23, 2017) (citing Fed. R. Civ. P. 11(b)). “The purpose of the rule is to
‘deter baseless filings in district court,’ Cooter & Gell v. Hartmarx Corp., 496 U.S. 384, 393
(1990), and ‘to spare innocent parties and overburdened courts from the filing of frivolous
lawsuits.’” Id. (quoting Zuffante v. Stephens, No. 3:13-CV-1146-B, 2013 WL 4829193, at *1
(N.D. Tex. Sept. 9, 2013) (quoting Kurkowski v. Volcker, 819 F.2d 201, 204 (8th Cir. 1987))).
Plaintiff has proceeded in this case pro se, but Rule 11 applies equally to attorneys and to
unrepresented parties. See Hicks v. Bexar County, Texas, 973 F. Supp. 653, 687 (W.D. Tex. 1997),
affd, 137 F.3d 1352 (5th Cir. 1998).
“After notice and opportunity to respond, courts finding a Rule 11 (b) violation may impose
appropriate sanctions.” Copeland, 2016 WL 7971584, at *8 (citing Fed. R. Civ. P. 11(c)(1).
“These may include monetary and injunctive sanctions, Farguson v. MBank Houston, N.A., 808
F.2d358, 359-60 (5th Cir. 1986), and even dismissal.” Id. (citing Bell v. Dunn, Johnston & Brown,
No. 3:10-cv-l-M-BH, 2011 WL 759473, at *3 (N.D. Tex. Feb. 7,2011) (citing Jimenez v. Madison
Area Technical Coll., 321 F.3d 652, 657 (7th Cir. 2003)), adopted by 2011 WL 726114 (N.D. Tex.
Mar. 1, 2011). “Courts have a duty to ‘impose the least severe sanction adequate’ to deter future
conduct.” Id. (citing Mendoza v. Lynaugh, 989 F.2d 191, 196 (5th Cir. 1993) (quoting Akin v. QL Invs., Inc., 959 F.2d 521, 535 (5th Cir. 1992)); accord Fed. R. Civ. P. 11(c)(4)). “The moving
party has the burden to overcome the presumption that pleadings are filed in good faith.” Id.
(citing Tompkins v. Cyr„202 F.3d 770, 788 (5th Cir. 2000)).
Rule 11 (c)(2) provides that a motion must describe the specific sanctionable conduct. Fed.
R. Civ. P. 11(c)(2). “The rule contains a safe harbor provision that requires that the motion ‘be

REPORT AND RECOMMENDATION - Page 5

Case 4:18-cv-00570-ALM-CAN Document 47 Filed 04/18/19 Page 6 of 11 PagelD #: 239

served under Rule 5, but it must not be filed or be presented to the court if the challenged paper,
claim, defense, contention, or denial is withdrawn or appropriately corrected within 21 days after
service or within another time the court sets.”’ Id. “This requirement is strictly construed and
substantial compliance is insufficient.” Copeland, 2016 WL 7971584, at *8 (citing Morris v.
Thaler, No. 3:12-CV-4916-N, 2013 WL 2383652, at *2 (N.D. Tex. May 31, 2013) (citing In re
Pratt, 524 F.3d 580, 586-88 (5th Cir. 2008))). Defendants Weisman and Keil complied with the
safe harbor provision by mailing Plaintiff a detailed letter and a copy of the Motion for Sanctions
on January 14, 2019, twenty-one (21) days prior to filing the Motion for Sanctions on February 5
2019. See Pompura v. Willis, 4:16-cv-766 (E.D. Tex 2017) (Priest-Johnson, J.).
In addition to the ability to impose sanctions under Rule 11, “[t]he district court has the
power under 28 U.S.C. § 1651(a) to enjoin litigants who are abusing the court system by harassing
their opponents.” McMullen v. Cain, No. A-17-CA-0103-LY, 2017 WL 4510594, at *2 (W.D.
Tex. Feb. 23, 2017), report and recommendation adopted, L17-CV-103-LY, 2017 WL 4506814
(W.D. Tex. June 22,2017) (quoting Harrelsonv. United States, 613 F.2d 114,116 (5th Cir. 1980)).
“The court’s power to enter such orders flows not only from various statutes and rules relating to
sanctions, but the inherent power of the court to protect its jurisdiction and judgments and to
control its docket.” Farguson, 808 F.2d at 360. A pre-filing injunction “must be tailored to protect
the courts and innocent parties, while preserving the legitimate rights of litigants.” Id. “Sanctions
may be appropriate when a pro se litigant has a history of submitting multiple frivolous claims.”
Campbell v. Maye, No. A-10-CA-463 LY, 2010 WL 2671725, at *5 (W.D. Tex. June 30, 2010),
affd, 428 F. App’x 382 (5th Cir. 2011) (citing Fed. R. Civ. P. 11; Mendoza v. Lynaugh, 989 F.2d
191, 195-97 (5th Cir. 1993)).

REPORT AND RECOMMENDATION - Page 6

Case 4:18-cv-00570-ALM-CAN Document 47 Filed 04/18/19 Page 7 of 11 PagelD #: 240

With these legal principles in mind, the Court turns to consider the reasons Defendants
Wiesman and Keil assert sanctions are appropriate:
Plaintiffs groundless allegations against Collin County Assistant District
Attorneys Melanie Wiesman and Ashley Keil underscores that his goal was not the
assertion of legitimate claims, but rather, was a calculated and improper effort to
extract retribution from the Collin County Assistant District Attorneys who
prosecuting [sic] the Plaintiff. . . . Ignoring clearly established law protecting
governmental employees, and particularly the absolute Prosecutorial Immunity, is
exactly the type conduct which merits sanctions and the award of attorney’s
fees.. . The Plaintiff has no good faith argument for the extension, modification or
reversal of existing law or the establishment of new law, which would justify
Plaintiffs complete and intentional disregard of the facts and the clear entitlement
of Assistant District Attorneys Melanie Wiesman and Ashley Keil to Prosecutorial
Immunity. . . . Plaintiff has also unnecessarily and vexatiously increased the
activity in this litigation by requiring the ongoing presentment of the Motions to
Dismiss, filing his Motion for Appointment of Counsel, and ignoring this Court’s
Order requiring a response to these Defendants’ Motion to Dismiss. . . .This is not
Plaintiffs first brush with spurious litigation against governmental entities. Nearly
a decade ago Plaintiff sued the Commissioner Of Internal Revenue challenging his
taxes. . . Also, in 2009, Plaintiff sued three Fort Worth Police Officers.
[Dkt. 42 at 7-10].
Upon review of the totality of the record, the Court does not agree that a sanction is
appropriate in this case. Defendants Wiesman and Keil are correct that the entirety of Plaintiff s
claims against Defendant Wiesman and Keil are barred by prosecutorial immunity, and also on
several other grounds; this fact alone however cannot merit sanctions. In addition, although
Plaintiffs claims against Defendants Wiesman and Keil are subject to dismissal, there is no
indication that pro se Plaintiff pursued such barred claims in bad faith or for an improper purpose.
See Rivera v. Kalafut, No. 4:09CV181,2010 WL 1076056, at *4 (E.D. Tex. Feb. 17,2010), report
and recommendation adopted, 4:09CV181, 2010 WL 1063580 (E.D. Tex. Mar. 23, 2010), affd,
456 F. App’x 325 (5th Cir. 2011) (“There is no indication that Plaintiffs pleadings were filed for
an improper purpose or in bad faith. Plaintiff is proceeding pro se, and the Court finds that his
failure to comply with procedural expectations in this case does not warrant the issuance of

REPORT AND RECOMMENDATION - Page 7

Case 4:18-cv-00570-ALM-CAN Document 47 Filed 04/18/19 Page 8 of 11 PagelD #: 241

sanctions against him at this time.”). Plaintiffs failure to immediately dismiss his suit following
counsels’ four letters to Plaintiff [Dkts. 42-1; 42-2; 42-3; 42-4], three of which were sent in close
temporal proximity to each other on December 9, December 10 and December 20, 2018, does not
alter this conclusion. See Zuffante v. Stephens, No. 3:13-CV-1146-B, 2013 WL 4829193, at *1
(N.D. Tex. Sept. 9, 2013) (“The moving party has the burden to overcome the presumption that
pleadings are filed in good faith.”) (citing Tompkins v. Cyr, 202 F.3d 770, 788 (5th Cir. 2000)).
Particularly given that the record demonstrates that, after issuance of summons, Plaintiff made a
fairly limited number of filings, and Defendants Wiesman and Keil’s motion practice was driven,
in part, by their own affirmative requests for relief [Dkts. 13; 14;70; 71; 42]. Plaintiff did not in
this case engage, as alleged by Defendants, in harassing motion practice. Specifically, as to his
motions to appoint counsel, the record demonstrates that the Court denied Plaintiffs first request
for appointment of counsel without prejudice and noted that “Plaintiff may reurge his motion
should exceptional circumstances arise” [Dkt. 29 at 2]. Plaintiffs second request for counsel
(which raised arguments and circumstances not included in his first request), although not
successful, hardly evidences Plaintiffs disregard for the Court or his improper motive in pursuing
his claims against Defendants Wiesman and Keil.
Defendants Wiesman and Keil cite two district court opinions in support of their contention
that sanctions should be imposed in this case: (1) Strain v. Kaufman County Dist. Attorney's Office,
23 F. Supp. 2d 698, 701 (N.D. Tex. 1998);3 and (2) Pompura v. Willis, 4:16-cv-766 (E.D. Tex
2017) (Priest-Johnson, J.). In Strain, the court awarded attorney fees pursuant to 42 U.S.C § 1988

3 The Court notes that Defendants Wiesman and Keil’s Motion for Sanctions does not contain a full or short cite to
the Strain opinion; the Motion does advise as to one party’s name, Strain; the presiding judge, Bilby, and certain
relevant page numbers, 701-02, associated with a quoted portion of the opinion’s text [Dkt. 42 at 8], As such, the
Court discerns, based on the provided information, that Defendants Wiesman and Keil refer to Strain v. Kaufman
County Dist. Attorney's Office, 23 F. Supp. 2d 698, 701 (N.D. Tex. 1998).
REPORT AND RECOMMENDATION - Page 8

Case 4:18-cv-00570-ALM-CAN Document 47 Filed 04/18/19 Page 9 of 11 PagelD #: 242

(not Rule 11 or Section 1651(a)), after finding that the defendants satisfied the factors enumerated
by the Fifth Circuit in United States v. Mississippi, 921 F.2d 604,609 (5th Cir. 1991): “(1) whether
plaintiff established a prima facie case; (2) whether the defendant offered to settle, and (3) whether
the district court dismissed the case or held a full-blown trial.” Strain, 23 F. Supp. 2d at 700. In
the instant case, Defendants Wiesman and Keil have not expressly moved pursuant to § 1988 for
their attorney fees and costs, and have not addressed each of the three factors enumerated above.
As the Strain case analyzes fee awards under completely different authority it offers limited
guidance herein. Regarding the Pompura case, the court found sanctions appropriate given the
plaintiffs disregard for the District Attorney’s assertion of prosecutorial immunity and lack of
allegations regarding the DA’s personal involvement, coupled with both the plaintiffs failure to
prosecute her case (including her failure to accept correspondence from the court or comply with
orders to respond) and extensive litigation history. Specifically, the Pompura plaintiff had initiated
eighteen (18) recent (September 26,2016 — December 23,2016) civil cases in Texas federal courts,
which in connection with the totality of the record, clearly justified and merited sanctions.
Pompura v. Willis, 4:16-cv-766 (Dkt. #44) (E.D. Tex 2017). The record in the instant case is
distinguishable. Although Plaintiff has pursued his claims against Defendants Wiesman and Keil
in spite of their assertion of prosecutorial immunity, the record does not establish that Plaintiff has
failed to prosecute his case; Plaintiff has timely responded to motions filed in this matter and has
accepted and acknowledged the Court’s correspondence. In addition, and importantly, there is
insufficient evidence that Plaintiff has engaged in a pattern of vexatious and harassing litigation.
As noted above, the plaintiff in Pompura filed eighteen (18) frivolous lawsuits in the span of four
months; here, Defendants Wiesman and Keil cite to two cases filed by Plaintiff ten (10) years ago,
and in one of the cases Plaintiff is alleged to have been challenging his taxes. The Court finds that

REPORT AND RECOMMENDATION - Page 9

Case 4:18-cv-00570-ALM-CAN Document 47 Filed 04/18/19 Page 10 of 11 PagelD #: 243

the decision in Pompura is distinguishable from the instant case. The record in this matter does
not support the imposition of sanctions, as did the record in Pompura. See Fountain v. Protect
Am., Inc., No. 4:15CV22, 2015 WL 12669883, at *3 (E.D. Tex. Dec. 2, 2015), report and
recommendation adopted sub nom. Clayton Fountain v. Protect Am., Inc., 4:15CV22, 2016 WL
542351 (E.D. Tex. Feb. 11,2016).
In light of the reasons enumerated supra, the Court declines to recommend the imposition
of sanctions, and recommends that a judgment that Plaintiff take nothing by his claims and that his
claims be dismissed be deemed sufficient to deter Plaintiffs conduct in the future. See Crain v.
Credit Prot. Ass’n, No. 3:09-CV-2353-D, 2010 WL 2976127, at *5-6 (N.D. Tex. June 30, 2010),
report and recommendation adopted, No. 3:09-CV-2353-D, 2010 WL 2976120 (N.D. Tex. July
28,2010) (“’The imposition of sanctions using inherent powers must be accompanied by a specific
finding ofbad faith’.... Additionally, the standard for imposing sanctions is very high—the court
‘must find that the very temple of justice has been defiled by the sanctioned party's conduct’... .
there is nothing to suggest that Plaintiff filed its claims against the Defendant in bad faith or for
any improper motive such as harassment or delay, much less to establish that the very temple of
justice has been defiled. Defendant's motion for sanctions under the Court’s inherent powers
should also be denied.”) (quoting Godlwin v. Bartholow, 166 F.3d 710, 722-23 (5th Cir. 1999));
Allen v. Travis, No. CIV.A.3:06-CV-1361-M, 2007 WL 1989592, at *4 (N.D. Tex. July 10, 2007)
(“sanctions may be appropriate when a pro se litigant has a history of submitting multiple frivolous
claims.”) (citing Mendoza v. Lynaugh, 989 F.2d 191, 195-97 (5th Cir. 1993)).

REPORT AND RECOMMENDATION - Page 10

Case 4:18-cv-00570-ALM-CAN Document 47 Filed 04/18/19 Page 11 of 11 PagelD #: 244

CONCLUSION AND RECOMMENDATION
Based on the foregoing, the undersigned recommends Defendants Collin County Assistant
District Attorneys Melanie Wiesman and Ashley Keifs Motion for Sanctions and to Declare
Plaintiff a Vexatious Litigant [Dkt. 42] be DENIED.
Within fourteen (14) days after service of the magistrate judge’s report, any party must
serve and file specific written objections to the findings and recommendations of the magistrate
-\

judge. 28 U.S.C. § 636(b)(1)(C). In order to be specific, an objection must identify the specific
finding or recommendation to which objection is made, state the basis for the objection, and
specify the place in the magistrate judge’s report and recommendation where the disputed
determination is found. An objection that merely incorporates by reference or refers to the briefing
before the magistrate judge is not specific.
Failure to file specific, written objections will bar the party from appealing the unobjectedto factual findings and legal conclusions of the magistrate judge that are accepted by the district
court, except upon grounds of plain error, provided that the party has been served with notice that
such consequences will result from a failure to object. See Douglass v. United Servs. Auto. Ass ’n,
79 F.3d 1415, 1417 (5th Cir. 1996) (en banc), superseded by statute on other grounds, 28 U.S.C.
§ 636(b)(1) (extending the time to file objections from ten to fourteen days).
SIGNED this 18th day of April, 2019.

Christine A. Nowak
UNITED STATES MAGISTRATE JUDGE

REPORT AND RECOMMENDATION - Page 11

Case 4:18-cv-00570-ALM-CAN Document 51 Filed 07/31/19 Page 1 of 7 PagelD #: 260

United States District Court
EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION

TONY LAMAR VANN

§

v.

§
§

KEN PAXTON, ET AL.

§
§

Civil Action No. 4:18-CV-570
(Judge Mazzant/Judge Nowak)

MEMORANDUM ADOPTING REPORTS AND
RECOMMENDATIONS OF UNITED STATES MAGISTRATE JUDGE
Came on for consideration the reports of the United States Magistrate Judge in this action,
this matter having been heretofore referred to the Magistrate Judge pursuant to 28 U.S.C. § 636.
On April 18, 2019, the reports of the Magistrate Judge (Dkts. #46; #47) were entered containing
proposed findings of fact and recommendations that: (1) Defendants Collin County Assistant
District Attorneys Melanie Wiesman and Ashley Keil’s Motion to Dismiss Pursuant to Fed. R.
Civ. P. 12(b)(6) (Dkt. #13), Defendant Ken Paxton’s Motion to Dismiss Pursuant to Fed. R. Civ.
P. 12(b)(1) and Fed. R. Civ. P. 12(b)(6) (Dkt. #25), and Defendant Richard Chambers’ Motion to
Dismiss (Dkt. #34) each be granted; (2) Plaintiffs “Objection to; Defendant[’]s Assertion of the
Qualified Immunity Defense and Sanctions/And Second Motion for Default Judgment Rule 12,
and Rule 55(B)(1) and 5 U.S.C. 552(A)” (Dkt. #36) be denied; and (3) Defendants Collin County
Assistant District Attorneys Melanie Wiesman and Ashley Keil’s Motion for Sanctions and to
Declare Plaintiff a Vexatious Litigant (Dkt. #42) be denied. Having received the reports of the
Magistrate Judge, having considered Plaintiffs Objection (Dkt. #49), and having conducted a
de novo review, the Court is of the opinion that the Magistrate Judge’s reports should be adopted.
RELEVANT BACKGROUND
On August 6, 2018, Plaintiff filed the instant suit against Defendants Texas Attorney
General Ken Paxton, Assistant District Attorney Melanie Wiesman, Assistant District Attorney

Case 4:18-cv-00570-ALM-CAN Document 51 Filed 07/31/19 Page 2 of 7 PagelD #: 261

Ashley Keil, and Wylie Police Officer Richard Chambers ("Officers Chambers"), asserting
claims arising from his state criminal proceedings (Dkt. #1). After a traffic stop and consentedto search of his vehicle which yielded a small baggie of cocaine, on April 18, 2017, Plaintiff was
arrested by Officer Chambers (Dkt. #4-1 at p. 3).

In July 2017, Plaintiff was indicted for

felony possession of a controlled substance under one gram (Dkt. #13-2). State of Texas v. Tony
Lamar Vann, Cause No. 401-83037- 2017. In the state criminal proceedings, the Government
was represented by Collin County Assistant District Attorneys Melanie Wiesman and Ashley
Keil. In his criminal proceedings, Plaintiff filed a Motion to Dismiss (Dkt. #4-1 at p. 1) and a
Motion to Quash (Dkt. #4-1 at p. 4). Plaintiff entered a guilty plea on May 23, 2018 (Dkt. #13-3),
and is currently fulfilling a period of probation for the conviction.
Plaintiff filed his Amended Complaint on September 6, 2018, seeking compensatory and
punitive damages as relief for alleged violations of his civil rights under § 1983 and for “First
Amendment Retaliation” (Dkt. #4 at pp. 1, 3). Plaintiff alleges he was wrongfully convicted
(Dkt. #1). Specifically, Plaintiff asserts that Officer Chambers “planted drugs in Plaintiffs
vehicle. In retaliation for trying to get BBQ pits for free,” and because he filed various pleadings
in the state criminal proceeding, “this made the D.A. [Melanie] Wiesman [and] Ashley [Keil]
angry!!!... in retaliation^] they stopped the motion hearing on May 23,2018[,] threatening Plaintiff
with a 20 year sentence” (Dkt. #4 at p. 3) (emphasis in original). Plaintiffs Amended Complaint
does not contain any mention of AG Paxton, beyond the style of the case.
On April 18, 2019, the Magistrate Judge entered two Reports and Recommendations, the
first recommending that Defendants’ Motions to Dismiss be granted, and Plaintiffs Motion for
Default Judgment be denied (Dkt. #46); and the second recommending that Defendants Collin
County Assistant District Attorneys Melanie Wiesman and Ashley Keifs Motion for Sanctions

2

Case 4:18-cv-00570-ALM-CAN Document 51 Filed 07/31/19 Page 3 of 7 PagelD #: 262

and to Declare Plaintiff a Vexatious Litigant be denied (Dkt. #47). The first report recommending
dismissal of Plaintiff s claims specifically found that: (1) the Eleventh Amendment bars Plaintiffs
claims under § 1983 against Defendants Wiesman, Keil, and AG Paxton in their official capacities;
(2) the entirety of Plaintiff s claims under § 1983 are barred by Heckv. Humphrey, (3) Plaintiffs
claims under § 1983 against Defendants Wiesman and Keil are barred by prosecutorial immunity;
(4) as Plaintiff does not allege any personal involvement by AG Paxton, his claims against AG
Paxton in his individual capacity should be dismissed under Rule 12(b)(6); and (5) Plaintiff cannot
prove a constitutional violation in connection with Officer Chambers’s conduct. Plaintiff filed an
“Objection to All Informations [sic] in Report and Recommendation of United States Magistrate
Judge” (Dkt. #49).
OBJECTIONS TO REPORTS AND RECOMMENDATIONS
A party who files timely written objections to a magistrate judge’s report and
recommendation is entitled to a de novo review of those findings or recommendations to which
the party specifically objects. 28 U.S.C. § 636(b)(1)(C); Fed. R. Civ. P. 72(b)(2)-(3). Plaintiff
asserts two objections to the first report recommending dismissal of his claims: first, the report
failed to consider Plaintiffs assertion that “all parties] in above cause failed to timely object
to. . . Officer Richard Chambersfs] body camera showing him planting drugs in Plaintiffps]
vehicle”; and second, “all parties have not affirmatively consented] to a Magistrate Judge[’s]
jurisdiction” (Dkt. #49).

Neither Plaintiff nor Defendants object to the second report

recommending Defendants’ request for sanctions be denied. The Court therefore adopts such
recommendation, and considers herein Plaintiffs enumerated objections.

3

Case 4:18-cv-00570-ALM-CAN Document 51 Filed 07/31/19 Page 4 of 7 PagelD #: 263

Evidence-Planting Allegations
Plaintiff argues that the report specifically failed to consider Plaintiffs “Objection to All
Pleading of Defendants for Party’s Failure to Oppose Video Certified Copy #9347 Dis 1 of 3
Officer Richard Chambers Body Camera Local Rule CV-7(D) & (E) Rule 12 [sic] Objections,”
wherein Plaintiff asserts that because Defendants did not respond to the body camera footage,
“judgment belongs to Plaintiff as a matter of law” (Dkt. #43). The report clearly considered
Plaintiffs assertion that Officer Chambers planted contraband in Plaintiffs vehicle. Indeed, the
report, in finding Plaintiffs claims barred by Heck v. Humphrey, 512 U.S. 477 (1994), stated:
Plaintiff contends that, in violation of Plaintiffs constitutional rights, Officer
Chambers planted the contraband in his vehicle . .. .The entirety of Plaintiffs
claims revolves around his averment that he has been wrongfully convicted of this
crime... a judgment in favor of Plaintiff would necessarily imply the invalidity of
his conviction (i.e., that he was the victim of Officer Chambers’s scheme to plant
the contraband in his vehicle, resulting in his conviction, and the prosecutors
ignored the allegedly illegal search and threatened him with a hefty sentence when
he defended his case)
Plaintiffs conviction has not been reversed on direct
appeal, expunged by executive order, declared invalid by a state tribunal, or called
into question by a federal court’s issuance of a writ of habeas corpus. . . .Thus,
despite Plaintiffs averments to the contrary, it is clear that Plaintiffs claims
necessarily seek to and would undermine the validity of his conviction. “Under the
holding in Heck, [PJlaintiff may not employ this § 1983 action to collaterally attack
any of those state criminal convictions.”
(Dkt. #46 at pp. 11-13). A judgment in Plaintiffs favor herein, i.e., finding that Officer Chambers
retaliated against Plaintiff by planting the drugs underlying his conviction or otherwise, would
necessarily imply the invalidity of his conviction.

Plaintiffs claims are barred by Heck v.

Humphrey. See e.g., Conlan v. King, etal.,682 F. App’x 345 (5th Cir. 2017); Villegas v. Galloway,
etal., 458 F. App’x 334, 337 (5th Cir. 2012). Plaintiffs objection is overruled. i

1 Insofar as Plaintiff moves for default judgment as a result of Defendants’ purported failure to respond to Docket #43,
the Court finds that such request is improper as no default has occurred. Spence v. Argent Mortg. Co., LLC, No.
4:13CV512, 2014 WL 11486242, at *1 (E.D. Tex. May 27, 2014), report and recommendation adopted. No.
4:13CV512, 2014 WL 11486244 (E.D. Tex. Sept. 29, 2014).
4

Case 4:18-cv-00570-ALM-CAN Document 51 Filed 07/31/19 Page 5 of 7 PagelD #: 264

;

Referral to Magistrate Judge
Plaintiffs argument that the Report was improper because all parties have not consented
to the Magistrate Judge is misplaced. “[A full Article III] judge may designate a magistrate judge
to hear and determine any pretrial matter pending before the court, except [certain dispositive
motions]” and “may also designate a magistrate judge to ... submit to a judge of the court proposed
findings of fact and recommendations for the disposition, by a judge of the court, of any [of those
excepted] motion[s] ” 28 U.S.C. § 636(b)(l)(A)-(B).

“Additionally, the Eastern District of

Texas’s Local Rules also provide district judges wide latitude in referring matters and motions for
a magistrate judge’s review.” Robinson v. Texas, 4:18-CV-66, 2018 WL 4057192, at *2 (E.D.
Tex. Aug. 27, 2018) (Mazzant, J.) (citing E.D. Tex. Local Civil Rule 72(d)).
Upon referral, a magistrate judge may recommend disposition of a motion to dismiss to the
district judge; the district judge then conducts a de novo review of those portions of the
recommendation to which parties raise specific, timely objection. Contrary to Plaintiff s assertion,
“[t]he consent of the parties is not required for a district court to refer a motion to dismiss to a
magistrate under 28 U.S.C. § 636(b)(1)(B).” Smith v. Am. Postal Workers Union, 306 F. App’x
178, 180 (5th Cir. 2009). On August 6, 2018, the undersigned referred this case to the Magistrate
Judge for pretrial proceedings.

On April 18, 2019, the Magistrate Judge recommended that

Defendants’ Motions to Dismiss be granted and Plaintiffs claims be dismissed (Dkt. #46). The
Magistrate Judge acted within the bounds of statutory authority in making such recommendation.
See Smith, 306 F. App’x at 180. Plaintiffs objection is overruled.

5

Case 4:18-cv-00570-ALM-CAN Document 51 Filed 07/31/19 Page 6 of 7 PageiD #: 265

CONCLUSION
Having considered Plaintiffs Objection (Dkt. #49), and having conducted a de novo
review, the Court adopts the Magistrate Judge’s reports (Dkt. #46; #47) as the findings and
conclusions of the Court.
It is, therefore, ORDERED that each of Defendants Collin County Assistant District
Attorneys Melanie Wiesman and Ashley Keifs Motion to Dismiss Pursuant to Fed. R. Civ. P.
12(b)(6) (Dkt. #13), Defendant Ken Paxton’s Motion to Dismiss Pursuant to Fed. R. Civ. P.
12(b)(1) and Fed. R. Civ. P. 12(b)(6) (Dkt. #25), and Defendant Richard Chambers’ Motion to
Dismiss (Dkt. #34) be GRANTED. Plaintiffs § 1983 claims against Defendants Wiesman, Keil,
and AG Paxton in their official capacities are DISMISSED WITHOUT PREJUDICE, and
Plaintiffs § 1983 claims against Defendants Wiesman, Keil, AG Paxton in their individual
capacities and Plaintiffs claims against Officer Chambers are DISMISSED WITH
PREJUDICE.
It is further ORDERED that Plaintiffs “Objection to; Defendant[’]s Assertion of the
Qualified Immunity Defense and Sanctions/And Second Motion for Default Judgment Rule 12,
and Rule 55(B)(1) and 5 U.S.C. 552(A)” (Dkt. #36) is DENIED.
It is further ORDERED that Defendants Collin County Assistant District Attorneys
Melanie Wiesman and Ashley Keil’s Motion for Sanctions and to Declare Plaintiff a Vexatious
Litigant (Dkt. #42) is DENIED.

6

Case 4:18-cv-00570-ALM-CAN Document 51 Filed 07/31/19 Page 7 of 7 PagelD #: 266

All relief not previously granted is DENIED.
The Clerk is directed to CLOSE this civil action.
IT IS SO ORDERED.
SIGNED this 31st day of July, 2019.

AMOS L. MAZZANT
& V
UNITED STATES DISTRICT JUDGE

7

